<html>
<title> - EXAMINING THE THREATS POSED BY CLIMATE CHANGE</title>
<body><pre>[Senate Hearing 113-793]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-793

                      EXAMINING THE THREATS POSED
                           BY CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the


                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-184 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

               SHELDON WHITEHOUSE, Rhode Island, Chairman
THOMAS R. CARPER, Delaware           JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
EDWARD MARKEY, Massachusetts         JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 29, 2014
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     2
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     4

                               WITNESSES

Hedde, Carl G., CPCU, Head of Risk Accumulation, Munich Re 
  America........................................................     6
    Prepared statement...........................................     8
    Responses to additional questions from Senator Whitehouse....    16
Jacobs Hon. Kristin, Commissioner, Broward County, Florida.......    18
    Prepared statement...........................................    21
    Responses to additional questions from Senator Whitehouse....    27
Mook, Bill, President, Mook Sea Farm Raymond J. Keating, Chief 
  Economist, Small Business and Entrepreneurship Council.........    30
    Prepared statement...........................................    32
    Responses to additional questions from Senator Whitehouse....    44
Keating, Raymond J., Chief Economist, Small Business and 
  Entrepreneurship Council.......................................    48
    Prepared statement...........................................    50
    Responses to additional questions from Senator Whitehouse....    61
Lomborg, Bjorn, Ph.D., Adjunct Professor, Copenhagen Business 
  School and President, Copenhagen Consensus Center, USA, Inc....    87
    Prepared statement...........................................    89
    Responses to additional questions from Senator Whitehouse....   101

                          ADDITIONAL MATERIAL

Article: Centers for American Progress; Groundhog Days, Utilities 
  Wrong Again About Safeguard Costs, Daniel J. Weiss and Miranda 
  Peterson.......................................................   123

 
             EXAMINING THE THREATS POSED BY CLIMATE CHANGE

                              ----------                              


                         TUESDAY, JULY 29, 2014

                                U.S. SENATE
          Committee on Environment and Public Works
               Subcommittee on Clean Air and Nuclear Safety
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Building, Hon. Sheldon Whitehouse 
(chairman of the subcommittee) presiding.
    Present: Senators Whitehouse, Sessions, Vitter, Boozman, 
Markey.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Let me welcome the witnesses and call 
this hearing of the subcommittee to order.
    One matter of technical business or procedural business, 
perhaps I should say, there is a vote at 2:45. So I think what 
we will try to do is try to get through the opening statements, 
break at that point so we can all go vote and then reconvene 
for the witness testimony and for any further opening 
statements that may have emerged. So that is the way I intend 
to proceed.
    I note that some of my colleagues are from States that 
depend on fossil fuels. And they argue that steps to curb 
carbon pollution will hurt their economies. And they understand 
that we want to protect jobs in those industries. This hearing 
is to ask that they look at the other side of the ledger, the 
damage to coastal homes, infrastructure and businesses from 
rising seas, erosion and saltwater intrusion, hospitalization 
and missed school or work for families when asthma attacks are 
triggered by extreme heat and smog, forests ravaged by beetle 
infestations and unprecedented wildfire seasons, farms 
plundered by drought and flood.
    A study called Risk Business Commission by former New York 
City Mayor Michael Bloomberg, former President George W. Bush 
Treasury Secretary Hank Paulson and former hedge fund manager 
Tom Steyer found that along our coasts, between $66 billion and 
$106 billion worth of existing property will likely be below 
sea level by 2050. By 2100, as much as half a trillion dollars 
worth of property could be literally underwater. Our side of 
the ledger counts too. And those costs are high.
    But you don't have to take it from me. Take it from our 
witnesses. I met Broward County Commissioner Kristin Jacobs on 
my visit to Florida this spring. She explained to me how sea 
level rise drives saltwater inland, threatening South Florida's 
fresh water supply and fresh water canals. She says they will 
have to raise the head of the canals to keep saltwater out of 
the drinking supply, even though that ends up leading to more 
inland flooding.
    Inaction on climate change is not an option for Florida. 
And the longer we wait, the bigger the problem and the higher 
Florida's price tag.
    We will also hear today from the global reinsurance firm 
Munich Re, which found a dramatic fivefold increase in weather-
related disasters in North American from 1980 to 2011, racking 
up $510 in losses. GAO repots that disaster declarations in the 
U.S. have increased sharply over recent decades and potential 
losses in the National Flood Insurance Program have created 
``substantial financial exposure for taxpayers.'' Insurers like 
Munich Re are taking climate change seriously.
    Bill Mook is here to discuss how changes in the ocean are 
affecting the U.S. shellfish industry, which brought in over $2 
billion in 2012. Nearly 7,000 jobs in Rhode Island are directly 
connected to harvesting, processing, distributing and selling 
fish landed by Rhode Island fishing vessels.
    We know the carbon dioxide we dump into the atmosphere 
acidifies seawater. That is basic chemistry. You can do that in 
a high school lab. Scientists say that the changes in ocean 
acidity we have already seen decrease survival rates for 
shellfish larvae. In fact, we have already seen dramatic die-
offs on the west coast.
    We also know the oceans are warming at an alarming rate. 
Ninety-three percent of the heat from climate change and global 
warming goes into the oceans. Warming temperatures may be to 
blame for the disaster that has been declared in the northeast 
groundfish fishery. And research has documented species in this 
region shifting northward.
    Rhode Island fishermen, who grew up fishing, in fact, one 
testified in the seat where Mr. Mook now is, he fished with his 
grandfather and he fished with his father. He said never in 
their lives did they pull up the fish that they are seeing now 
in Rhode Island waters: grouper, tarpon, tropical waters that 
have moved up as the seas have warmed.
    Climate change is stacking the deck against our oceans, 
against our fisheries and against our coastal economies. Carbon 
pollution is a challenge that can and must be solved. The 
committee has much to learn from our witnesses as we address 
this urgent threat.
    I thank the witnesses for joining us, and I turn to my 
distinguished ranking member, Senator Sessions of Alabama. In 
my remaining 30 seconds, I will point out that we have a chart 
that actually says that the solar photovoltaic potential of 
Alabama is just as good as any State around, it is not a 
problem.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. All right. That would be great. 
Particularly if we had anything like a cost-effective 
utilization, that would be fabulous. I am for all of our 
alternative sources of energy. I think we should conduct 
research in those areas. But I don't think we should press down 
on the brow of the working man on inefficient technologies that 
require them to pay considerably higher prices for the energy 
that they consume. So that is where we will be discussing these 
issues.
    Hopefully today we will have a good discussion about it. We 
have Dr. Lomborg in our hearing this morning. I thought he was 
very interesting at the Budget Committee. So there are a couple 
of things.
    First, do you believe science is sufficient to justify 
warming? My view is, it seems like it would, warming would 
occur. Although I would acknowledge the numbers haven't borne 
out the computer models in recent years. Maybe 15 years, quite 
dramatically.
    So then the question is, if you share that view, what do 
you do about it and how do you react to it and what actions can 
be taken. So this committee hearing might help us discover 
that. Dr. Lomborg and our other witness this morning said, OK, 
we accept these change are occurring, this is our opinion about 
how to fix it. I thought it was a valuable discussion, so maybe 
we can do that today.
    But also we had testimony from Dr. Montgomery this morning 
that the way this Administration is doing this, a regulatory 
top-down method, would result in four times the cost for the 
same amount of environmental benefit you could do if you did 
the situation differently.
    Second, we continue to talk about storms and so forth. Dr. 
Pielke testified before our committee and said, it is 
misleading and just plain incorrect to claim that disasters 
associated with hurricanes, tornadoes, floods or droughts have 
increased on climate time scales either in the United States or 
globally. While we have droughts in the western part of the 
United States that are severe, the IPCC cites the Palmer Index 
to conclude that worldwide, the soil moisture content is 
actually more moist than historical norms.
    So I would just say to my colleagues, we look forward to 
this hearing. We look forward to your testimony. I think we 
need to establish policies in this Country that serve the 
people of this Country. And spending trillions of dollars now 
in a way that does not produce results and results in the 
future would be so little affected by what we do today requires 
us as policymakers to be very careful about what we do.
    I look forward to your testimony and I guess we will be 
heading to a vote soon. Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, and thanks to all 
of our witnesses. I also look forward to the discussion. I hope 
we have a rigorous, nuance discussion about the facts and 
specifically where they lead us.
    I am frustrated all too often by discussions here on the 
subject in Washington, even more so by discussions in the 
media, that jump from broad statements like climate change is 
happening, well, everyone agrees with that. Climate change is 
always happening. Or broad statements that human activity 
causes, is a significant contributing factor to some climate 
change and some temperature rise. Lots of folks agree with 
that.
    Jump from there to what I view as a very extreme and very 
expensive regulatory agenda being pushed unilaterally by the 
Administration.
    So I hope we don't have another sort of cartoonish 
discussion making those huge jumps. I hope we get into some 
rigor and nuance. I have been trying to do that on this 
committee as ranking member. I have made specific requests that 
serious statements of science be made with precision; precision 
in what the science shows and what the level of uncertainty and 
modeling has been in presenting what is indicated by empirical 
evidence.
    Since the beginning of this Congress, Republicans have 
invited many well-qualified scientists to testify at our 
numerous climate hearings. Each one has spoken to what the 
empirical evidence shows. It shows, among other things, for 
instance that hurricane and tornado activity has not been 
increasing in either frequency or intensity. And you would 
never think that from the cartoon presentations up here and in 
a lot of the media. It shows that global temperatures have not 
been increasing at any rate close to what was predicted 10 
years ago.
    So I look forward to a rigorous, detailed discussion, 
including pointing out certain facts. First of all, carbon is 
an inaccurate term to be used in this discussion. We are 
talking about carbon dioxide, not carbon monoxide, for 
instance, a pollutant already regulated and a known danger.
    Another fact, the cost of the domestic economy from actions 
undertaken in furtherance of the President's climate action 
plan remains unknown as the Administration utilizes and 
internally developed social cost of carbon estimate that 
captures the global benefits while ignoring the domestic costs.
    A third fact, without the co-benefit reductions in 
particulate matter and ozone precursors, actions to address 
carbon dioxide don't pass a cost benefit analysis.
    Fourth important fact, abundant, affordable, reliable 
electricity drives economies and raises populations out of 
poverty. It drives our current manufacturing renaissance and 
our competitive advantage around the world. So if you take that 
away, families, communities and small businesses all suffer, 
suffering unnecessarily for no tangible gain.
    So again, I look forward to a detailed, rigorous, nuance 
discussion.
    Senator Whitehouse. Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Senator Whitehouse. I note the 
vote has begun. I will be brief.
    As Senator Vitter points out, is the climate changing? Yes, 
it is changing. It has always changed throughout tens of 
thousands and hundreds of thousands of years. The question is, 
what is the cause of this change? Is it a different cause now 
in the 20th and 21st centuries from the causes in the past? I 
think it is interesting to hear testimony about that.
    I think a better title for this hearing, Mr. Chair, rather 
than Examining the Threats Posed by Climate Change, I think a 
better title would be Examining the Threats Posed by Climate 
Change Inaction and of Action. Because as Mr. Lomborg pointed 
out in the budget hearing today, there is a cost of inaction, 
but there is very much a cost to the poor of climate change 
action. Many of the proposed reforms set out by the United 
Nations, by the Administration, will have very much a 
detrimental effect on the poor, particularly in the short term.
    Also I think it is without question that climate action can 
and probably will, probably is having a negative impact on job 
creation. So we need to balance the costs of climate inaction 
against the costs of climate action.
    I also think it is interesting to note that the 
Intergovernmental Panel on Climate Change has been careful not 
to say that the recent cost of storms and disasters is 
attributed to climate change. As a matter of fact, the IPCC 
Special Report on Extreme Weather says, ``Long term trends in 
economic disaster losses adjusted for wealth and population 
increases have not been attributed to climate change.'' To me, 
Mr. Chairman, that means that the growing exposure of people 
and economic assets in the way of storms has increased the cost 
and not climate change itself.
    I think this is an interesting subject. Certainly we have 
had quite a lot of hearings on this topic. I think this will be 
one of the more interesting panels that I have attended and 
look forward to the testimony and the questions. Thank you, 
sir.
    Senator Whitehouse. Very well. With the opening statements 
concluded, we will now take a recess while we all head over to 
the floor and vote. For your own purposes, I would estimate 
that that takes five to 7 minutes. So don't go too far, but 
don't feel pinned to your seat. We will be back shortly. Thank 
you all very much.
    [Recess.]
    Senator Whitehouse. The hearing will come back to order. I 
thank Senator Wicker for returning. We will begin with the 
witnesses. We will begin with Carl Hedde, who is the Senior 
Vice President and Head of Risk Accumulation in the 
Underwriting Services Division at Munich Re America. The Risk 
Accumulation that he manages includes catastrophe management, 
risk accumulation and geosciences research functions. His 
responsibilities include oversight of corporate accumulation 
issues, including the use of catastrophe risk models, client 
catastrophe risk consulting services and portfolio management 
and optimization.
    He also manages a group of scientists that provide climate, 
seismological and meteorological expertise and research 
capabilities to Munich Re America and its clients. He has 30 
years of experience at Munich Re America and is a past chairman 
of the Insurance Institute for Business and Home Safety and a 
founding member of the International Society of Catastrophe 
Managers.
    Mr. Hedde, thank you very much for being here. Please 
proceed with your testimony.

 STATEMENT OF CARL G. HEDDE, CPCU, HEAD OF RISK ACCUMULATION, 
                       MUNICH RE AMERICA

    Mr. Hedde. Thank you and good afternoon, and thank you for 
inviting me to testify.
    I am Carl Hedde, Head of the Risk Accumulation Department 
at Munich Re America, one of the largest reinsurers in the 
United States. Founded in 1917, we have over 1,000 employees 
serving our clients in the United States. Our parent company, 
Munich Re, is one of the world's leading reinsurers.
    The insurance industry relies heavily on historical loss 
information to make business decisions. However, the use of 
historical data assumes that the risk we see today is the same 
as it was in the past. This is not always the case. Where we do 
see an upward trend is in regard to losses from weather 
catastrophes, which over time have increased in both frequency 
and severity.
    In the United States, socioeconomic changes have played a 
substantial role in this increase, but do not explain the 
entirety of the changes. It is likely that changes in climate, 
whether from natural variability or due to man's influence are 
playing a role in these trends.
    Today we will provide an update on natural catastrophes, or 
Nat Cat activity, as well as examples of effective adaptation 
efforts for the extreme weather events that our Country will 
continue to face.
    Globally there were close to 500 loss events due to Nat 
Cats in the first 6 months of 2014. Extraordinarily hard winter 
conditions affected the U.S. and Japan while parts of Europe 
suffered from heavy rainfall, storms and floods. While it was 
cold in some parts of the globe during the winter of 2014, it 
was not cold everywhere. Alaska and Greenland were much warmer 
than normal, as was most of Europe, North Africa and China. The 
average global temperature in January 2014 was 1.17 degrees 
Fahrenheit, warmer than the 20th century average.
    Worldwide, direct economic losses totaled $42 billion and 
insured losses totaled $17 billion from the 6-month period, 
well below the 6-month average of $94 billion economic loss for 
the last 10 years. In the United States, 67 Nat Cat events 
caused over $14 billion in economic losses and over $10 billion 
in insured property losses during the first half of 2014, 
accounting for over 60 percent of the global total.
    Insured losses due to thunderstorm-related perils, such as 
tornadoes and hail during the first 6 months of 2014 are 
estimated at $7.8 billion, accounting for almost 80 percent of 
the half-year total insured loss. This is the lowest half-year 
total since 2007, due primarily to prolonged winter conditions 
across the eastern U.S. which resulted in the late start of the 
spring thunderstorm season.
    Although drought conditions eased in some locations, 
conditions in California worsened and the State is now 
experiencing one of its worst droughts.
    I would now like to talk about the upward trends we see in 
relation to Nat Cat events. We see that worldwide annual totals 
of geophysical loss events like earthquakes and volcanic 
eruptions have stayed very constant over the past 35 years. 
Where we see an upward trend is the increasing number of 
weather-related events around the globe as well as climactic 
events such as drought and heat waves. Our research also shows 
that since 1970 there has been an increase in the frequency and 
variability in the large scale atmospheric conditions that 
allow severe thunderstorms to develop over the eastern two-
thirds of the U.S.
    Other perils we note in respect to notable upward trends 
are drought, flood and wildfires. While it is good news that 
Nat Cats in the U.S. have been relatively minor so far in 2014, 
we should not forget there has been no change in the overall 
catastrophic risk situation of the Nation. Our buildings and 
infrastructure are very vulnerable to Nat Cats and future large 
loss events are inevitable, regardless of climate change, 
though climate change would worsen the situation.
    Munich Re supports a smart, balanced approach that protects 
the public, does not stifle business or innovation. The 
insurance industry and the Insurance Institute for Business and 
Home Safety have been conducting research and promoting 
stronger building codes and stronger construction practices. 
Much of the findings are incorporated into the IBA Trust 
Fortified Program. In addition to the IBA Trust Fortified 
Program, Munich Re also supports further development of the 
Resilient Star program, a public-private partnership initiated 
by the Department of Homeland Security, with a goal to build 
and retrofit homes to be more disaster resistant.
    It is in the mutual interest of the Federal Government and 
the insurance industry to partner to find solutions in the 
areas of adaptation and risk transfer. This makes absolute 
sense from a macroeconomic perspective, as lower subsequent 
losses will generate savings of several times the investment. 
Most importantly, these solutions can protect human lives.
    I want to thank you again for providing me this opportunity 
to testify today.
    [The prepared statement of Mr. Hedde follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Whitehouse. Thank you very much, Mr. Hedde. We 
appreciate that you are here.
    Our next witness is Hon. Kristin Jacobs. She was first 
elected to the Broward County Florida Commission in 1988, and 
she is now serving her fourth consecutive term on the 
commission. She has served as the commission's mayor twice, 
most recently in 2013, and as the vice mayor twice. She serves 
on the President's State, Local and Tribal Leaders Task Force 
on Climate Preparedness and Resilience, co-chairing the Built 
Systems subgroup. And she chairs the White House National Ocean 
Council Governance Coordinating Committee. She is also Vice 
Chair of an Energy Subcommittee for the National Association of 
Counties.
    In 2009, Ms. Jacobs brought together four southeast Florida 
counties, including Broward County, to sign the Southeast 
Florida Climate Compact, which was a bipartisan plan to 
mitigate property loss, make infrastructure more resilient and 
protect essential community structures like hospitals, schools 
and emergency shelters.
    We welcome her here and thank her for her travel from 
Florida.

STATEMENT OF HON. KRISTIN JACOBS, COMMISSIONER, BROWARD COUNTY, 
                            FLORIDA

    Ms. Jacobs. Thank you, and good afternoon, Mr. Chairman.
    As a Broward County Commissioner and member of the 
President's Task Force, I would like to personally thank you 
for your leadership and for convening today's hearing.
    I am so honored and grateful to have been able to serve in 
one of the most progressive regional governments in the Country 
for nearly 16 years. I spent a significant number of those 
years tackling the challenges of climate change.
    As you know, Florida and especially South Florida is 
extremely vulnerable to the effects of climate change. Our 
extensive coastline, low land elevations, flat topography and 
unique geology combine to put South Florida communities on the 
front line for combating climate impacts.
    Local governments really are the first responders when it 
comes to addressing the hazards of climate change. These 
hazards include coastal and inland flooding, storm surge, 
saltwater contamination of our well fields, impacts on water 
and wastewater systems, beach erosion and threats to public and 
private property. We also are experiencing increased severity 
of storms, hotter temperatures, impacts to public health and 
threats to our natural resources, with cascading effects, 
geographically and economically.
    In South Florida we have chosen to undertake a regional 
approach in planning for climate change, one that emphasizes 
collaboration and join action. Our journey has been propelled 
by the shared reality of impacts that are already affecting our 
communities, especially sea level rise. Already, we experience 
extensive flooding during extreme high tide events, with 
neighborhoods inundated as seawater pours over seawalls, pushes 
up through storm drains and rises up through the ground. Iconic 
business districts are impacted, including Duvall Street in Key 
West, the famed Alton Road in Miami Beach and Las Olas 
Boulevard in downtown Fort Lauderdale. Miami Beach is now 
undertaking a $200 million storm water master plan to address 
sea level rise, and Fort Lauderdale similarly estimated similar 
improvements at $1 billion.
    While these provide recognizable examples, in reality our 
entire urban landscape is at risk. The discharge capabilities 
of our regional flood control system has been reduced such that 
even minor storm events can result in extensive flooding. 
Severe storms further increase risks, such as the recent one in 
a thousand-year storm event when 22 inches of rain fell over 
Palm Beach County in less than 24 hours, flooding inland 
neighborhoods several miles in.
    Other regional impacts include the loss of potable water 
capacity within the Biscayne Aquifer, our region's primary 
water supply. Replacement water sources and systems are 
estimated at $300 million just for Broward County alone. To 
reduce risk and the potential for significant economic losses, 
adaptation necessitates major investments and upgrading our 
infrastructure, coupled with an aggressive plan to head off the 
most severe climate change impacts through deep reductions in 
carbon pollution, the leading cause of global climate change.
    The economic implications of a failed response simply do 
not allow for inaction. With just one additional foot of sea 
level rise, $4 billion in taxable property will be flooded in 
Palm Beach, Broward and Monroe Counties. At three feet, that 
figure rises to $31 billion. To provide additional economic 
scope, one-third of our State's gross domestic product is tied 
to the economies of southeast Florida, and of course, 
nationwide with coastal counties, account for 45 percent of the 
national GDP.
    Critical assets, infrastructure, local business and 
households are the very fabric of our economy. As we know from 
risk analysis, investments and resilience pay off by a factor 
of four to one.
    In 2009, recognizing our collective vulnerabilities, the 
four counties of Southeast Florida, Broward, Palm Beach, Miami-
Dade and Monroe, united in a historic compact agreeing to work 
across party and geographic lines to address climate change 
head-on with one voice. In the 6-years since the initial 
signing of the Southeast Florida Regional Climate Change 
Compact, the four counties have agreed to and are in the 
process of implementing 110 specific recommendations to reduce 
greenhouse gas emissions and adapt to climate change. Acting 
together, we are strong and we are infinitely more resilient.
    But at the end of the day, we couldn't have gotten as far 
as we have without the partnerships of the Federal Government, 
all of which have included their support, including NOAA, in 
developing vulnerability mapping and conducting assessments; 
the USDOE, for the Florida Goes Solar Initiative, to help 
advance residential rooftop installations; and the USGS in 
developing advanced hydrologic models.
    Increasingly, it is clear that local governments and 
regional initiatives like the compact will play an important 
role in leading climate adaptation. But there remains a great 
need for the technical and financial support of the Federal 
Government, along with the transition to a clean energy 
economy.
    I am pleased to share with you that Broward County has 
already committed to a 20 percent renewable energy goal and in 
a unanimous bipartisan vote, our board supported the EPA's 
Clean Carbon Rule. Climate change is one of the most important 
issues facing our Nation. As a grandmother of three, I can 
assure you the future is already here. It is our responsibility 
as government to act now to ensure that the resources and 
prosperity that we have so enjoyed will be there for our 
children in the future.
    I thank you so much for the opportunity today to speak to 
you, and I look forward to a lively and engaged conversation.
    [The prepared statement of Ms. Jacobs follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Whitehouse. Thank you very much, Commissioner 
Jacobs.
    Our next witness is Mr. Bill Mook, who is the President and 
owner of Mook Sea Farm, an oyster farm founded in 1985 on the 
Damariscotta River in mid-coast Maine. He raises the American 
oyster from egg to adult size, producing 80 million to 100 
million juvenile oysters annually for sale to other east coast 
oyster growers and for cultivation and sale on the U.S. half 
shell market.
    Mr. Mook was appointed to a 16-member commission created by 
the Maine legislature to study ocean acidification and its 
effects on shellfish. He has worked as a research assistant at 
the University of Maine, prior to his work in the shellfish 
aquaculture industry and previously spent several years 
teaching science and biology.
    Mr. Mook, welcome.

        STATEMENT OF BILL MOOK, PRESIDENT, MOOK SEA FARM

    Mr. Mook. Thank you, Mr. Chairman.
    As already mentioned, I am President and Owner of Mook Sea 
Farm, founded in 1985. We are located on the Damariscotta River 
in mid-coast Maine. At our hatchery, we produce seed oysters. 
Some are sold to other east coast growers and the rest we grow 
and sell into the domestic half shell market as Wiley Point and 
Pemaquid Point oysters.
    My company employs 10 to 14 people, including myself. I 
will make a wild guess that I am the only one in this room 
whose paycheck directly depends on an oyster's ability to make 
its shell. About 25 percent of the carbon dioxide we put into 
the atmosphere dissolves into the ocean where it forms carbonic 
acid. This process is called ocean acidification. It is 
occurring at a rate that may be unprecedented in earth's 
history and will accelerate as carbon dioxide emissions 
increase.
    Ocean surface waters are 30 percent more acidic than they 
were at the start of the industrial age. Scientific study of 
ocean acidification is young, and we have a lot to learn about 
what influences acidification along our coasts, how marine 
ecosystems will be impacted or what those impacts will mean for 
people and communities.
    However, we know that regional climactic and oceanographic 
factors can exacerbate acidification of coastal waters. In the 
gulf of Maine, where my business is located, the problem is 
freshwater, which is more acidic than seawater. And in the last 
50 years, there has been a 67 percent increase in very heavy 
precipitation.
    From numerous studies, we know that acidification of the 
marine environment will hurt many shellfish. We know that the 
combined negative effects of acidification and other climate 
change parameters, like higher temperatures and low oxygen, can 
be additive and sometimes synergistic. Not only shellfish are 
vulnerable. The survival, health and behavior of species like 
the cod, summer flounder, Atlantic silverside and even 
clownfish are also compromised in high CO2 conditions.
    At Mook Sea Farm, starting in 2009, we tried to figure out 
why our oyster larvae were having problems. Fertilized eggs 
sometimes showed poor survival. More often, larval growth would 
slow down and the larval period, which normally lasts 14 to 16 
days, would drag on for an additional week or more. Large storm 
events seemed to be the common denominator.
    We developed a suite of strategies. They all, and this is 
key, assumed that low pH water was the culprit. These methods 
were consistently applied to every group of larvae we produced 
this year, and for the first time since before 2009, we were 16 
for 16. Every group passed through the larval phase in 14 to 16 
days.
    Taking all this together, we know acidification is not a 
future problem; it is a problem now and it will only get worse. 
What are the fates of wild populations in uncontrolled 
conditions? Based on monitoring our intake water, the prognosis 
is not good. I believe that as acidification progresses, larval 
success will become increasingly sporadic, reaching a point 
where some natural populations won't occur. As I explain in my 
written testimony, there are indications that this process may 
be underway.
    What are the stakes? Every day enormous quantities of 
calcium carbonate are trucked around this Country. The $2 
billion annual landed value of shellfish increases 
substantially as it moves up the supply chain from harvesters 
to wholesalers, distributors, supermarkets, fish markets and 
restaurants. Even though lobsters and crabs make up half the 
value of the U.S. landings, we know little about the responses 
to acidification. This is of special concern to us in Maine, 
where lobsters are king of marine resources, sustain thousands 
of people and are the lifeblood of communities from Kittery to 
Eastport.
    Because this study of ocean acidification is so new, we 
don't have the information needed to fully examine the threats 
it poses. There are two critical research priorities: water 
chemistry monitoring and understanding species and ecosystem 
responses to increasing carbon dioxide.
    Mitigating and adapting will only buy us time while 
greenhouse gases accumulate in our atmospheres and oceans. As 
an American businessman, I believe the greenhouse gas equation 
is solvable. Leadership with basic research and American 
ingenuity and innovation will yield not only greenhouse gas 
reductions but it will also yield many unanticipated benefits. 
With American leadership and unity to solve the problem, the 
outcomes become exponential.
    Thank you very much.
    [The prepared statement of Mr. Mook follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Whitehouse. Thank you very much, Mr. Mook.
    Our next witness is Raymond J. Keating, who has served as 
the Chief Economist at the Small Business and Entrepreneurship 
Council since 1995. He is a registered lobbyist who writes, 
speaks and testifies before Congress on a wide range of issues 
affecting small businesses and the economy. Since 1995, he has 
testified before Congress over 15 times.
    He is also a lecturer at the Townsend School of Business at 
Dowling College. He has co-authored or authored several books 
and written articles and many publications. He holds a B.S. in 
business administration and economics from St. Joseph's 
College, an M.A. in economics from New York University, and an 
M.B.A. in banking and finance from Hofstra University.
    Mr. Keating, please proceed with your testimony.

    STATEMENT OF RAYMOND J. KEATING, CHIEF ECONOMIST, SMALL 
             BUSINESS AND ENTREPRENEURSHIP COUNCIL

    Mr. Keating. Mr. Chairman, members of the committee, thank 
you for hosting this hearing today. My focus will be on the 
negative effects that regulations tied to climate change have 
on small business and the economy.
    I am pleased to submit this testimony on behalf of the 
Small Business and Entrepreneurship Council and our Center for 
Regulatory Solutions. SBE Council is a non-partisan, non-profit 
advocacy, research and training organization dedicated to 
protecting small business and promoting entrepreneurship. The 
Center for Regulatory Solutions is a project of SBE Council.
    I would like to start off by saying that the State of the 
economy must be weighed when considering any major policy 
endeavor, including, of course, significant regulatory measures 
related to climate change. After all, on the cost side the 
economics of regulation are rather straightforward. That is, 
regulations raise the costs of and create uncertainties for 
investment, business and entrepreneurship, thereby restraining 
critical risk-taking, along with productivity, economic growth 
and job creation. The wages and incomes of workers and families 
suffer as a result.
    Consider some facts on the U.S. economic performance in 
recent years. During the recovery we have averaged real GDP 
growth of only 2.1 percent annually. That is less than half of 
where we should be if you look at the history since 1950. And 
of course, GDP shrank by 2.9 percent in the first quarter.
    Critical here is the lackluster private investment. That is 
really the most troubling issue in this very troubling economy, 
given that private investment is idle for economic growth now 
and in the future. And if you look at the numbers, we are still 
below the recent high hit in 2007 when it comes to private 
investment.
    This is the worst possible scenario to be imposing an 
additional massive regulatory intrusion in the name of climate 
change. Indeed, from an economic perspective, when it comes to 
the climate change regulatory agenda, the only outcome that we 
can be confident in is that new regulatory and/or tax regimes 
will impose very real costs on and reduce economic efficiency 
in industries, businesses and the economy. All of that 
providing anything meaningful in terms of climate benefits or 
reductions in global temperatures. In other words, it is all 
pain, no gain.
    When focusing on the threats posed and costs imposed by 
climate change, the clearest and most significant come from the 
resulting government actions. In particular, increased 
regulatory and tax burdens, such as mandating reductions in 
carbon dioxide emissions, mandating the use of cost and 
inefficient alternative sources of energy and/or imposing some 
kind of carbon tax.
    I noted several studies in my written comments that show 
significant losses in terms of economic growth, income and 
productivity due to regulatory costs. As for small business, 
which is obviously vital for our group, the SBA's Office of 
Advocacy published an updated study in 2010 looking at 
regulatory costs at the Federal level. I would just like to 
highlight two points right now.
    For firms with less than 20 employees, the per employee 
cost of Federal regulations was 42 percent higher than firms 
with employees between 20 and 499; 36 percent higher for firms 
with 500 or more employees. Look on the environmental front, 
environmental regulations, the costs are even higher. So the 
burden of regulation on small business is significant and 
disproportionate.
    When we look at what has been going on, we have heard a lot 
of talk about the EPA's war on coal related to carbon dioxide 
emission limits on power plants. I would argue and I have 
argued that this is really a war on small business as well. 
Just a few quick points.
    First, straightforward economics makes clear that whatever 
the details of the regulatory schemes that will be used, the 
costs, again, will be formidable. We are talking about big 
costs on the U.S. economy; we are talking about big costs on 
small businesses. Ninety-nine point 9 percent of all 
businesses, both employer and non-employer firms, have less 
than 500 workers; 98 percent have less than 20.
    Second, higher energy costs spell trouble for U.S. firms in 
the international marketplace. Again, that is not big business. 
That is very much a small business issue. Ninety-eight of U.S. 
goods exporters are firms with less than 500 employees.
    U.S. manufacturers face increased costs and reduce 
competitiveness. And guess what, 98.6 percent have less than 
500 workers; 76 percent have less than 20 employees. And again, 
97 percent of manufacturing exporters are small and mid-size 
businesses.
    Finally, I want to touch on the fact that carbon-based 
energy sectors are overwhelmingly about small firms. Oil and 
gas extraction employer firms, 91 percent less than 20 
employees. Among coal mining employer firms, 60 percent have 
less than 20 employees. And among the sector that supports 
activities in coal mining, 69 percent have less than 20 
employees. This is all about small business and they face real 
and significant costs.
    Thank you for this opportunity. I will be glad to answer 
any of your questions.
    [The prepared statement of Mr. Keating follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Whitehouse. Thank you very much, Mr. Keating.
    Mr. Lomborg, welcome back. We saw one another in the Budget 
hearing this morning. So you have a two-fer going today. We 
welcome you. Please proceed with your testimony.

     STATEMENT OF BJORN LOMBORG, PH.D., ADJUNCT PROFESSOR, 
COPENHAGEN BUSINESS SCHOOL AND PRESIDENT, COPENHAGEN CONSENSUS 
                       CENTER, USA, INC.

    Mr. Lomborg. I hope you are having the two-fer but yes, I 
would love to just show you a little bit. The question is 
really on the effects of checked and unchecked climate change 
in communities and the economy. I am just going to look at the 
economic argument and I think I am going to pick up from 
Raymond Keating's point of saying that we need to make sure 
that we recognize there are both costs of not doing something 
and costs of doing something.
    So fundamentally, yes, global warming is a man-made, long-
term problem. For the U.S., it constitutes a problem about 1.2 
percent over the next five decades. So remember, this is a 
problem, but it is not the end of the world. It gives a sense 
of proportion. This is the total cost over the next five 
decades, so this is discounted back to today's dollars.
    If you look at the cost of inaction over this century, it 
is a significant increase in costs. That is certainly an 
argument for doing something. But we also need to remember that 
there is a cost to that action as well. Here I have a graph of 
the GDP growth per year for a lot of countries and 
CO<INF>2</INF> growth for a lot of countries per year. It shows 
that there is a very strong correlation; that is if you grow 
more, you will probably also have higher CO<INF>2</INF> 
emissions. Likewise, if you want to cut back on CO<INF>2</INF> 
2 emissions, you probably also will have lower growth.
    Now, this is not a one-to-one and it certainly is not that 
you have on growth if you cut your carbon emissions back. But 
there will be lower growth. So there is a cost, and that is 
basically the cost that I showed you up here. This is if we had 
the absolutely best outcome, one where all countries around the 
world coordinated with one perfect carbon tax increased in 
lockstep around all nations across the century. We would have 
slightly higher costs in the first part of the century and 
slightly lower, a little bit more lower costs toward the end of 
the century. So this would actually be a good policy. Of 
course, it is probably also a policy that is very hard to 
enact.
    I have also shown you, and I go through in my paper, why 
this is probably a much more likely outcome of action on 
climate change where we take strong action mostly in developed 
countries and rich countries and we do so in a way that we know 
we tend to do, which is less than economically fully efficient. 
And then of course, the cost of action actually ends up being 
phenomenally much higher, both because we pay many of the costs 
of the downside of climate change and a significant part of the 
costs of, a Raymond Keating mentioned earlier, in the 
regulation part.
    So what we have to do is make sure that we don't end up 
spending lots of money on things that will not actually help 
the world.
    If I could also just, and I was asked to make a few 
comments on some of the impacts on specific issues. We have 
talked about hurricanes; are hurricanes increasing. Well, we 
don't know this still from the evidence. But we actually expect 
that over the next 100 years there will be stronger hurricanes. 
I am taking, if you will, a slightly pessimistic view from one 
of the main papers that was cited in Nature a couple of years 
ago.
    If we assume that we are going to see stronger hurricanes, 
what will that impact be? Well, for now, it would be, the U.S. 
impact on hurricanes is about a loss of 0.1 percent of GDP. In 
2100, because you will be much richer, even if hurricanes are 
much stronger, the fact that you will also be much more 
resilient, partly because you are richer, we actually estimate 
the overall damage will be lower at about 0.05 percentage 
points.
    So again, the point here is to recognize, yes, there is a 
problem, but it is not the end of the world. Again, I think 
that argues for possibly having a more relaxed kind of 
conversation and a more rational kind of conversation.
    Could I also just emphasize, and I think this is part of 
the information that is necessary perhaps, from Europe, we have 
had some experiments in making pretty poor climate policies. We 
have managed to cut carbon emissions, but at fairly low cost. 
If you look at the U.K., heating prices in the U.K. over the 
last 5 years have gone up 63 percent. This harms especially 
poor people. We now know that about a million elderly in the 
U.K. stay in bed longer than they want to in order to keep 
warm. A third don't warm up more than one room.
    Electricity prices, for instance, have dramatically 
increased, about 50 percent. That has reduced consumption, 
which is what a lot of people argue, see, it actually worked. I 
think it is perhaps worth pointing that it reduces consumption 
for the poor, but not for the rich, because the rich could 
actually afford to keep using as much electricity.
    If I could just show you this one graph on electricity 
prices from Germany. Germany has the world's second highest 
electricity price. I am sorry to say that Denmark leads that. 
But they probably pay about three times as much as what you do 
on average here in the U.S. As you can see, they have seen an 
80 percent increase in price over the last 14 years. So 
basically this now means that about 7 million households live 
in energy poverty and 600,000 households had their electricity 
cut, because they couldn't afford it.
    This is just examples, again, of saying there is a real 
cost in action as well as inaction. What I want to make sure is 
that when we talk about this we don't just talk about there are 
terrible things happening with global warming. Yes, there is a 
problem. But also, a real conversation about how do we make 
sure that the action we take will actually not be more costly 
than the inaction we are trying to leave.
    Thank you.
    [The prepared statement of Mr. Lomborg follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Whitehouse. Thank you very much, Dr. Lomborg.
    Let me take a moment to put into the record a few 
documents. Two of them relate to information about the small 
business view on climate change reflecting that a majority of 
small businesses support the EPA regulating carbon emissions 
from existing power plants. And 76 percent are in favor of 
requiring new power plants to reduce carbon pollution. And 
other polling showing that small businesses believe climate 
change and extreme weather are an urgent problem that can 
disrupt the economy and harm small businesses; 57 percent of 
small businesses in this poll are described as an urgent 
problem that can disrupt the economy and harm small business. 
Four in ten strongly believe this.
    So there appears more than a single view of the small 
business community.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. I would also like to put into the 
record a report from the Center for American Progress called 
Groundhog Days, which relates to some of the testimony we had 
earlier in this committee from the four Republican EPA 
commissioners about the unfortunate track record of industry in 
predicting harm and disaster from environmental regulation, 
when in fact studies actually usually show that there are huge 
benefits, net benefits if you look at both sides of the ledger.
    So to my questions. Let me first ask Commissioner Jacobs, 
if you could tell me a little bit about what the specific 
threats are that Florida faces. What does it mean for your 
water supply and for coastal properties from sea level rise? 
First of all, there is no controversy in Florida that sea level 
rise relates to climate change, is there?
    Ms. Jacobs. In South Florida it is a bipartisan 
conversation. It is not the kind of conversation you are seeing 
up here in Washington. And I think that is primarily because we 
are all dealing with it.
    Senator Whitehouse. Your colleague Sylvia Murphy is very 
ardent protagonist in this area. And she is a Republican one 
county south of you, correct?
    Ms. Jacobs. Yes. But when you consider in South Florida 
that you have over 100 cities in the four counties representing 
five and a half million people, all of these cities and the 
four counties are struggling with how to pay for the 
infrastructure needs, and knowing what is happening.
    I want to point out just some of the things that are 
happening. For example, in Monroe County, you have a drainage 
system that was designed to pull water away during rain and 
storm events. But what has happened is that it has actually 
become the conduit to draw saltwater in twice a day with the 
daily movements of the tides. It has become such a problem that 
Ford Motor Company is no longer honoring the warranty to the 
police vehicle fleet there, because of saltwater damage to the 
undercarriage, and the fire hydrants are rusting away in the 
roads. They have just paid to have one of the roads raised 
another nine inches as a result of one of these problems.
    In Broward County, we have a saltwater intrusion line that 
is marching ever inward. Now it stands between three and six 
miles inland. Every well on the east side of that saltwater 
line--oh, there is a map. Every well on the east side of that 
red line has been lost to saltwater.
    Now, why that is important is in Broward County, unlike our 
sister counties to the north and south, you have 28 water 
utilities. So each of the different cities has their own 
utility. Whenever your utility loses its water supply, they 
must then purchase it from the neighboring city at a cost of 25 
percent increase.
    So when we talk about the ability for people to be able to 
afford moving forward, we know that saltwater is a problem. We 
know that we have to find ways to not only address the loss of 
well fields and potable water supply. But with 1,800 linear 
miles of canal systems just in our county alone, the issues are 
not just coastal, they are inland. There are 11 salinity 
structures, or flood control gates, that keep saltwater where 
it is supposed to be in the ocean, and the freshwater in our 
canals. They are designed to lift those gates during rain 
events and allow that water to drain out.
    Increasingly as sea level rise has come up, we are not able 
to open those gates. They remain closed, which requires that 
the inland areas stay inundated with water, sometimes up to 2 
weeks, which is what we saw in Palm Beach County. They simply 
had nowhere for that water to go.
    Senator Whitehouse. Does the drainage system that would 
take the freshwater, the rain water off of the land, is backed 
up against saltwater and it can open the gate?
    Ms. Jacobs. Exactly. It would either be, the gates either 
lift and you let it drain out to the sea or it is backed into 
the Everglades. Neither one of those options available.
    And increasingly, there are 18 of them that the South 
Florida Water Management District, which has the authority over 
the 16 southern Florida counties, has estimated that need to be 
replaced because they only have a six-inch head differential 
between the salt side and the freshwater side. Those all come 
at a cost of $50 million.
    The infrastructure needs in South Florida are herculean in 
scale. One of the things I think is important to understand is, 
at the end of the day, when the sweater has overtopped your 
canal wall and it has flooded your swimming pool with saltwater 
or your toilets are backing up, they don't care what party you 
are when they call. They don't care where they are in the 
economic ladder. They want you to answer.
    So that is way you see so many elected officials in South 
Florida pulling in the same direction. There is not an argument 
in South Florida that climate change is real, that the costs 
are out of scale and that we need to move forward.
    What I would think is one of the most important points that 
touches on many of the comments here today, and that is 
adaptation action areas. We were able to add into State law 
that they needed to be established throughout the State of 
Florida. We have asked for the Federal Government to engage in 
a similar undertaking. That allows you to figure out where are 
your vulnerabilities and how long it is until those changes 
come to you and allows you the opportunity to start 
prioritizing over what the changes are going to be in your 
future.
    The idea is, we are already, all of us, whether it is the 
Federal Government, the State or local government, spending 
significant sums of money. The idea is to spend them smartly, 
to understand what the future looks like and build accordingly. 
American ingenuity can pull us out of a lot of the scary 
scenarios that we are hearing about. But the only way that that 
truly happens is to recognize that it is coming, assess that 
vulnerability, create a prioritization of what you are going to 
do and then take your time in moving through the steps.
    Senator Whitehouse. Thank you very much.
    My distinguished ranking member, Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Dr. Lomborg, I was looking at one of your charts. I believe 
is figure one. It indicates that at least for the next 70 or so 
years, the global warming is a net benefit to, is that the 
United States or the planet as a whole?
    Mr. Lomborg. Yes, that is for the planet.
    Senator Sessions. Well, that is a pretty long time. So 
would say the predictions of disaster today might be a bit 
overdrawn.
    With regard to Ms. Jacobs, when you have a huge population 
living in South Florida and it draws water out of the aquifers, 
that does allow saltwater to infuse itself, does it not? Is 
that one of the factors that might be causing the salt increase 
in your aquifers?
    Ms. Jacobs. Actually, sea level rise is why we are losing 
our wells. But I would point out to you that we have taken the 
amount of water used in Broward County seriously, and through a 
variety of changes made----
    Senator Sessions. I just asked, was that one of the factors 
that might cause an increase in salt? You draw down your 
aquifers, water tends to move in, does it not?
    Ms. Jacobs. If you over-drew, than your permitted amount, 
then that is possible. That is why Broward County has reduced 
its future potable water needs by 50 percent.
    Senator Sessions. Dr. Lomborg, with regard to the chart, 
figure 13, I am a little uncertain about that. But it seems to 
me that you are saying that over on this one, let's take the 
other chart, you show a modest alteration in the actual, a 
modest cost if nothing is done. And in terms of the entire GDP, 
this looks like the chart is $650 billion and it looks like 
there is a very small extra cost if we did nothing over the 
next century. Is that correct?
    Mr. Lomborg. Yes.
    Senator Sessions. Can you translate that into dollars?
    Mr. Lomborg. There is an unavoidable cost. What I tried to 
show is that we are, over the century for the U.S., have a 
discounted value in GDP of about $650 trillion. If we have 
global warming as we believe it is today and don't do anything, 
that is going to cost us about $3.4 trillion. If we are 
phenomenally good at how we do our polices, we can reduce that 
number by about $200 billion.
    That is not nothing. That would be great. But it requires 
China, India, everybody else to do all the right things at all 
the right times. That is very unlikely.
    Senator Sessions. All right, $200 billion over 100 years.
    Mr. Lomborg. Yes.
    Senator Sessions. That is $2 billion a year, give or take.
    Mr. Lomborg. Yes, you can't quite do that, because it is 
discounted. But yes. Obviously the whole point here is to 
recognize that there is a significant risk that we are going to 
end up paying a lot more, and there is only a little upside.
    Senator Sessions. So what you are saying is, if we don't 
watch it, we will spend a lot more on preventing than we get in 
terms of benefit, based on the science that is out there today.
    Mr. Lomborg. Yes.
    Senator Sessions. And you accept IPCC's basic scientific 
data.
    Mr. Lomborg. If we look at the peer-reviewed studies on the 
cost of the European Union climate policies, which are well-
intentioned but very clearly not well made, we estimate that 
the benefit cost ratio to the world, not to the EU, but to the 
world, is probably going to be in the order of every dollar we 
spend, we will avoid three cents of climate damage for the 
world. I would argue that is probably a pretty poor climate 
policy.
    Senator Sessions. Now, Mr. Keating, I was really surprised 
about the percentage, or your contention that small businesses 
suffer more under the environmental regulations. Could you 
explain why that is, the regulations that impose costs, as they 
all do, why it falls more disproportionately on small 
businesses?
    Mr. Keating. Regulatory costs fall disproportionately more 
on small businesses than big firms. Think about the day to day 
operations of your average small business. Regulatory costs 
come down, larger firms have what, they have lawyers, they have 
everybody that can, a whole staff to deal with these things.
    To bring it down to the small business owner's level, they 
don't. They are operating on thin margins. They are struggling 
to get by, most of them. These regulatory costs fall much 
harder on them. That is borne out in the economic analysis, the 
work done by the SBA and work done by a whole host of other 
people, that the regulations fall much more heavily on small 
firms.
    Can I ask this to be put into the record? We have a 
wonderful handout here. The chairman mentioned polls, and I 
love doing poll battles. But we did a poll on regulations 
ourselves and the American people, in terms of what they 
believe about regulations. And guess what? They think that it 
mostly hurts, 70 percent, the American economy, 67 percent of 
America's competitiveness, 66 American workers, 66 percent 
small business.
    Senator Whitehouse. Without objection, that will be a 
matter of record.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. I appreciate that. I can give it as a pdf or a 
handout.
    Senator Whitehouse. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    So I am going to give a little good news to the committee, 
it is a little depressing hearing some of the testimony here. 
Just wanted to give you the history of the American economy 
since 1929. This is pretty much true every single environmental 
law that was passed in American history, Superfund, Clean Air 
Acts of 1970 and 1977, 1990, you can see that we had pretty 
much uninterrupted growth all the way with a period of time 
where there was some regulatory relief given by the Bush 
administration to the financial sector, which did cause a big 
economic downturn with that regulatory relief for businesses 
across the Country.
    But we recovered from that, imposing some regulation and we 
continued on our growth and all through the incredible 
environmental laws that we now have on the books. So I just 
wanted to make that clear, about economic growth.
    I also would like to use as an example not Germany or 
Denmark, we know little about those countries on the committee, 
but we do know something about the United States of America. 
And we do know something about the Regional Greenhouse Gas 
Initiative that Massachusetts and Rhode Island and New York and 
Maryland and Delaware and other States are in.
    And here is the good news. Since the Regional Greenhouse 
Gas Initiative went into effect, Massachusetts has reduced its 
greenhouse by 14 percent. And we have created 80,000 new clean 
energy jobs. We are going to 90,000 by the end of this year. 
Our unemployment rate has been lower than the national average 
over that last six or 7 year period. And while electricity 
rates went up 13 percent for the whole Country, they actually 
went down 6 percent in Massachusetts because of this incredible 
investment we made in energy efficiency and other technologies.
    So I just want to give some people out there who live in 
the United States and not in Germany or Denmark that we 
actually have examples here in America that exist right now 
that you can point to if you would like. And know that it can 
work, it does work. And it is right now. We don't have to point 
to other examples. We have no idea what the other factors might 
be in Germany or Denmark.
    And Mr. Keating, I agree with you that the impact on small 
businesses is disproportionate. There is a proposal to export 
our natural gas out of the United States, and the Energy 
Information Agency has said that that could lead to a 54 
percent increase in the price of natural gas to small 
businesses across the Country.
    What is your position on the exportation of natural gas if 
you know that it is going to lead to a 54 percent increase in 
price for small businesses in the United States and that there 
is a way of avoiding that and keeping the benefits of that low 
priced shale natural gas here for small businesses in the 
Country?
    And knowing as well that that 54 percent increase dwarfs 
any increase in electricity rates that the proposed regulation 
at the EPA would be able to impose upon local small businesses? 
It is just not even in the same league. How do you feel about 
helping us to stop that from happening, Mr. Keating?
    Mr. Keating. Thank you, Senator.
    First off, the only period of deregulation that we have had 
since World War II was during the 1980's.
    Senator Markey. I didn't ask you that. Can you answer my 
question?
    Mr. Keating. I am trying. Are you editing my response?
    [Simultaneous conversations.]
    Senator Markey. No, I am asking you to answer my question.
    Mr. Keating. I am leading up to it.
    Senator Markey. No, I have limited time. Please answer my 
question. How do you feel about the exploitation of natural gas 
for small business which is going to result in a 54 percent 
increase in price?
    Mr. Keating. LNG exports are a wonderful idea for small 
businesses. Your 54 percent number that you threw out there is 
complete speculation. It assumes, it is a zero sum outlook on 
the economy. And if anything we have seen in the energy sector, 
it is just the opposite. How many years ago, we just said that 
we felt we were depending on foreign sources of oil forever. 
And now we are an energy superpower. We are the No. 1 producer 
of oil and natural gas.
    Senator Markey. But no, for the record----
    [Simultaneous conversations.]
    Senator Markey. I am reclaiming my time. You are a guest of 
the committee. We import 30 percent of our oil, sir, and we are 
talking about exporting oil while we are still importing 30 
percent. If we were exporting wheat to Germany while we were 
still importing 30 percent of the wheat from other countries, 
perhaps Russia, I don't think that we would be happy with that.
    So are you going to answer the question about the 54 
percent increase? Mr. Lomborg is talking about 2100, which 
seems kind of speculative. What we have is near-term economic 
analysis of what the impact right now is of exporting natural 
gas. And if you could just give us an answer in terms of how 
that impacts small businesses today if the price went up 54 
percent.
    Mr. Keating. Well, first off, I don't buy the premise, 
Senator, quite simply.
    Senator Markey. Well, there you go.
    Mr. Keating. A 54 percent increase is pure speculation by 
one analysis. And if you look at the numbers----
    Senator Markey. That is my----
    Mr. Keating [continuing]. we would see a benefit in terms 
of producing more energy here at home both for domestic 
consumption and for exports.
    Senator Markey. I am reclaiming my time because it is 
running out. I am reclaiming my time and I will just say, I am 
reclaiming my time. The sheer speculation, sir, is you 
projecting these impossible to shoulder electricity rates for 
small businesses when the estimates are that the export of 
natural gas is going to absolutely drive electricity rates up 
in the United States and cost small businesses a tremendous 
amount of harm.
    So you ignore the economic analysis that you don't like in 
order to advance an ideological driven analysis which you come 
here, and we would be better if you basically accepted both 
premises, it would add a lot more credibility to your argument. 
Because we have a New England Northeast agenda which is already 
working to lower greenhouse gases and electricity rates at the 
same time.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. Dr. Lomborg, in 
your testimony you say that ``Current global warming policies 
make energy much more costly. This negative impact is often 
much larger, harms the world's poor much more and is much more 
immediate.'' Can you elaborate on that, particularly on impacts 
on poor and elderly that you have observed, anywhere, Europe, 
anywhere else where this has been tried?
    Mr. Lomborg. Fundamentally, if you are going to have costs 
and increase the cost of energy, because energy is something 
that we all need to use, it typically and predominantly falls 
harder on the poor. So it is a regressive tax in that case.
    Of course you can try to accommodate for that and some 
nations try to do this. But I think it is almost universal that 
it will end up being a regressive tax that harms the poor the 
most.
    So as I tried to mention before, we have stories and 
indications, for instance, from England that poor people, 
especially pensioners, have a very hard time because of the 
fact that energy costs have gone up dramatically. Now, this is 
not just because of climate policy, but it is a significant 
part of it. And there is a huge row, and I am going to leave 
that out of here, given that we just have 5 minutes, on exactly 
how much that is. But it is certainly in the direction that we 
would expect to see more of with harsher climate legislation.
    Likewise, we see this in Germany, as I mentioned before. It 
also erodes, in the long run, the willingness to engage in 
further climate policies. If we look, for instance, in Spain, 
Spain is now paying more in subsidies to wind and solar than 
they are spending on their entire higher education system. And 
clearly, that is not sustainable in the long run. You can't 
keep telling people, especially if they are as bankrupt as 
Spain, that they are going to keep paying more and more in 
green subsidies. I think that is one of the indications that 
you really need to find a way to cut carbon emissions and do so 
at a cheap rate.
    If you will just allow me one more example, because we sit 
here in a fairly wealthy part of the world, and talk about 
other relatively wealthy nations, there has been a great study 
done, for instance, on helping Africa. If you fly from South 
Africa up to Europe, you basically a continent that is almost 
dark. There is virtually no electricity. They have as much 
electricity for 870 million as Arizona has. So it gives you a 
sense of the proportion.
    Now, for instance, Obama wants to help electrify Africa. I 
think that is a wonderful idea. But the issue here is if we do 
that with green energy, for $10 billion we can lift 20 million 
people out of darkness and poverty. But if we do it with gas, 
we can lift 90 million people out of poverty and darkness.
    So we have to face up to the fact that if we focus on 
things that are costlier, it does have a real impact on poor 
people.
    Senator Vitter. OK. Also, Doctor, your testimony talks 
about the inaccuracy of the predictions and models over the 
last 30 years. You said it is becoming increasingly clear that 
if anything, nations should be focusing on preparing for the 
low end of what has been forecasted. Would you talk about that 
low end, why you come to that conclusion of serious problems in 
the science as it pertains to past predictions?
    Mr. Lomborg. The simple point is that as many, I am sure, 
have argued here before the committee, we have seen a hiatus in 
the increase in temperature. There are a lot of different ways 
to describe it, but it is certainly a lot less than what the 
computer models were predicting for the last 10, 15, maybe up 
to 20 years. So the reality here is we are seeing less than we 
expected.
    Now, this does not mean that global warming is not 
happening. But it probably does mean that we are in the lower 
end of the sensitivity to CO<INF>2</INF> rather than the high 
end. That simply indicates that I don't think this is the kind 
of thing that we should just say, oh, then there is no problem, 
and just move away. But we should recognize that it makes it 
less likely that the scary scenarios that we hear are the ones 
that are going to come about.
    And of course, again, remember, the models that I showed 
you are actually based on a relatively pessimistic model of 
that. It has slightly higher, not lower, climate sensitivity. 
It starts off with a negative right off the bat, from 0.1, and 
so on. So if anything, I have shown you an argument that even 
when you use a +relatively pessimistic model, shows you that we 
have to be very careful in order to not actually end up getting 
worse.
    Senator Vitter. And Mr. Keating, quickly, because my time 
is running out, can you comment on other experiences? Others 
have tried this model, basically, Europe, Australia to some 
extent, et cetera. Can you comment on what you have observed 
and what has been quantified in terms of the effects on their 
economies?
    Mr. Keating. Sure. And Dr. Lomborg quantified it perfectly 
I think in one of his charts right there. What I reference in 
my written testimony, Australia had a carbon tax, they realized 
the significant costs and the unpopular nature of that and 
recently got rid of that. When you look at the costs in 
Germany, in particular, what I highlighted in my comments were 
how much higher the costs were for businesses there for 
manufacturing and how non-competitive those costs make German 
manufacturers.
    This is one of the big benefits we have seen in this 
Country recently with our energy revolution and how wonderful 
that has been for domestic manufacturing right here at home. So 
why do we want to mess with that, I guess is how I would sum 
that up.
    Senator Vitter. Thank you very much.
    Senator Whitehouse. Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman. I would like to 
submit a letter for the record from Governor Beebe, my Governor 
in Arkansas. He recently sent a letter to President Obama 
expressing support for LNG exports, particularly Senator 
Udall's LNG export bill. With your permission, I ask unanimous 
consent.
    Senator Whitehouse. Without objection, it shall be made a 
part of the record.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       Senator Boozman. Thank you, Mr. Chairman.
    I am curious about the discussion that we are having about 
the LNG export. You mentioned that you had problems with the 54 
percent, and then again, you were talking a little bit about 
the benefits of doing that. Could you, Mr. Keating, and you, 
Dr. Lomborg, could you tell us your thoughts concerning the 
exports and if that is a good thing or a bad thing for us and 
the rest of the world? As you mentioned, I am running all 
around Arkansas trying to figure out how we can increase 
exports. Exports seem to be a good thing.
    Mr. Keating. Sir, I remember that it used to be both sides 
of the aisle were in favor of exports. I think we all should 
be. I did a paper on this last year, in terms of looking at the 
growth that we have seen in natural gas production here at home 
and the opportunity on the export front for small business 
specifically.
    So we broke out each State in terms of where this 
revolution has happened in terms of shale energy. And you see 
the numbers are unmistakable. Overall economy, the number of 
businesses down, the number of small businesses down for the 
period we looked at, the number of jobs down. Then you look at 
the energy sectors where this is happening and it is all up. In 
some States it is up incredibly.
    So this has been the one issue that I love talking about, 
because it is a positive issue, the economy for the last few 
years. But it is not only good news for the energy sector and 
the small businesses in that sector, but it has been good news 
for the economy overall and for small businesses in terms of 
the dramatic decline that we saw in natural gas production.
    My bottom line point is that when you look at the 
possibility of exports you can't, as an economist, I am always 
leery of predicting the future. But I go back to economic 
principles. And it isn't a zero sum game, which is what I 
started to say before. And we learn that in energy in a 
wonderful way. We thought that we were going to be dependent 
forever, and we are not. This is what happens in the private 
sector with innovation, technological advancement. And there is 
no reason to believe that that will not continue in the energy 
sector. When you look at the numbers, they are really quite 
staggering.
    The other thing about energy projections, they always come 
up, projections are always far short of what the eventual 
outcome is. Because again, technology changes and innovation 
happens.
    Senator Boozman. The only thing I would say is I can 
remember being in class a long time ago and my physics 
professor, this was back in the late 1960's, early 1970's, 
talking about how we would run out of natural gas in 20 years.
    Yes, Dr. Lomborg.
    Mr. Lomborg. I am not going to get into that whole 
conversation of whether you should export. But I think there 
are two things we need to recognize. One, natural gas and the 
switch to natural gas has become so cheap, from coal to gas has 
dramatically reduced the carbon emissions in the U.S. So we 
estimate, the latest here, we have good data, because obviously 
other things also happened in the recession and the fact that 
you have more wind turbines and so on, we estimate that the 
U.S. probably has cut about 300 megatons of CO<INF>2</INF> per 
year and the year 2012 because of the switch from coal to gas.
    That is dramatic. That is more than all the wind and solar 
in the world, which is about 275 megatons per year. So you have 
done an amazing achievement.
    Now, remember, there is still a long, long way to go. But 
it is certainly one of the biggest reductions we have seen.
    So in that sense, if we can indeed get more production from 
the U.S., which seems likely and reasonable, I would imagine, 
but again, I am not an expert in that, then certainly wouldn't 
you want to export part of this in order to make sure that 
other countries would also start to be able to reduce? Because 
they would get cheaper gas, which they would then not burn coal 
and substitute for.
    So if we are talking about global warming, that would 
probably be overall a good thing. But of course, in reality, 
the real solution will have to be to get other nations fracking 
as well.
    Senator Boozman. Your statistic about Africa was amazing, 
with the analogy about the natural gas, the energy credit there 
versus the other.
    Thank you very much, Mr. Chairman.
    Senator Whitehouse. Thank you very much, Senator Boozman.
    The hearing has come to its end. I appreciate very much 
that the witnesses took the trouble to come. Mr. Hedde, I am 
sorry that you didn't get a question, but your testimony is a 
part of the record, and it is clear from your testimony that 
there is more going on than just more expensive property in the 
way of the storms. I appreciate that you were able to bring 
that perspective on behalf of an industry that has huge amounts 
of money, and I am trying to get this information right.
    Ms. Jacobs, thank you for coming. I appreciate it. You are 
dealing first-hand with a very challenging experience, as an 
area that you love and a way of live is being challenged in new 
and different ways. I appreciate that there are bipartisan 
solutions being found in Florida to try to address the problem.
    Mr. Mook, again, you struck out on questions, but thank you 
for your very thoughtful presentation. You bring to this 
committee the hard, practical ground truth reality of someone 
whose business is already being affected by the really 
undeniable effect of carbon pollution, which is ocean 
acidification. That is something one can replicate in a high 
school lab. So it is not a complex matter. I appreciate very 
much that you were here.
    Mr. Keating, thank you for sharing your perspective. I am 
very grateful that you were able to come.
    And again, Dr. Lomborg, this was twice today, and thank you 
very much. We appreciate the perspective you were able to 
bring.
    Senator Sessions. Thank you, Mr. Chairman, it was a good 
group of witnesses. I look forward to continuing to discuss 
these matters. Mr. Hedde, if you have any scientific data that 
shows we are having increased hurricanes to date, let me know, 
please.
    Mr. Hedde. We will.
    Senator Whitehouse. You can actually broaden that to refer 
to storms in case there is a trick to the hurricane word. 
Storms and damage, OK? You use your words.
    Senator Sessions. Storms, hurricanes or droughts.
    Senator Whitehouse. Thank you very much. The hearing is 
adjourned. Thank you to my ranking member.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
